CERTIFICATION
As required by Supreme Court Rule 33.1(h), I
certify that the document contains 7,967 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d) .
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 29, 2020

dL~ Ia:,~

Arthur R . Traldi
Counsel of Record
ANDREOZZI & FOOTE
4503 Front Street
Harrisburg, Pennsylvania 17110
717-265-3162
traldila w20 18@gmail.com
Counsel for Amici Curiae

